                                                       DOT OIG Recovery Act Plan Overview
OIG Name:                                       U.S. Department of Transportation, Office of Inspector General


                                                Conduct timely oversight of DOT ARRA funds while focusing on three major challenges facing the Department: (1) ensuring
OIG Broad Recovery Act Goals:                   that DOT's grantees properly spend ARRA funds; (2) implementing new accountability requirements and programs mandated
                                                by ARRA; and (3) combating fraud waste, abuse, and mismanagement.
OIG Broad Training and Outreach Recovery Act Conduct fraud awareness and prevention activities to alert DOT staff and grantees, including contractors, at all levels of
Goals:                                       government on how to recognize, prevent, and report suspected fraud.

                                                DOT OIG is using a three-phase approach to conduct audit and investigative work by emphasizing high-risk areas and
                                                promptly report results: Phase 1--conduct a comprehensive review of prior reports and testimonies to identify major
                                                challenges facing DOT with the implementation of ARRA and identify actions DOT should take now to address known
                                                challenges--(COMPLETED); Phase 2--conduct a systematic scan of DOT agencies receiving ARRA funding to examine
OIG Recovery Act Risk Assessment Process:       vulnerabilities in program management and planning that could impede DOT's ability to effectively oversee ARRA-funded
                                                projects and meet new statutory and OMB requirements--(COMPLETED); and Phase 3--Target for audit and investigation,
                                                specific DOT programs and projects, emerging as vulnerable/high-risk areas as a result of the scan completed; proactive
                                                investigations initiated; and fraud prevention outreach and training conducted in Phase 2--(ONGOING). We will promptly
                                                notify DOT, Congress and the public through ARRA Advisories and reports, of DOT actions needed to achieve ARRA goals.



OIG Recovery Act Funds:                         $20,000,000
Expiration Date of OIG Recovery Act Funds:      30-Dec-12


OIG Recovery Act Funds Allocated to
                                                Yes
Contracts:
                                                To identify and discuss best practices in forecasting financial aspects of high-speed rail and more general intercity passenger
Purpose of Recovery Act Contracts:
                                                rail projects including ridership and revenues, operating costs and public benefits.
Types of Recovery Act Contracts Awarded to
                                                Competitive
Date:

Link to OIG Recovery Act Work Plan:             www.oig.dot.gov/recovery




Page 1 of Overview                                                                                                                     DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                           DOT OIG Recovery Act Issued Products



                                           DOT OIG Recovery Act Audit Reports


    Issued                                                       Title/Link


               American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the Department of
  3/31/2009
               Transportation

               Status of Operating Administrations' Processes to Conduct Limited Quality Reviews of Recovery Act
  10/6/2009
               Recipient Data

               Department of Transportation's Implementation of the American Recovery and Reinvestment Act Continued
 11/30/2009
               Management Attention is Needed to Address Oversight Vulnerabilities

               Department of Transportation's Suspension and Debarment Program Does Not Safequard Against Awards to
   1/7/2009
               Improper Parties


  2/23/2010    Recovery Act Data Quality: Errors in Recipients' Reports Obscure Transparency


 10/22/2010 ARRA Websites Vulnerable to Hackers and Carry Security Risks


   1/6/2011    Actions Needed To Strengthen FHWA's National Review Teams


  1/27/2011 Amtrak Made Significant Improvements in its Long-Term Capital Planning Process


  1/27/2011 FAA Fulfilled Most ARRA Requirements In Awarding Airport Grants


  7/15/2011 FHWA's Oversight of Federal-Aid And Recovery Act Projects Administered by LPA's Needs Strengthening


               NY Fulton St. Transit Center: FTA's Sustanined Focus on Key Risk Areas is Needed Until the Project Is
  8/15/2011
               Completed




Page 1 of Issued Products                                            DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                         DOT OIG Recovery Act Issued Products



                                           DOT OIG Recovery Act Advisories


    Issued                                                    Title/Link


  5/18/2009 Department's Suspension and Debarment Program


  6/22/2009 Sampling of Improper Payments in Major DOT Grants Programs


               Federal Aviation Administration's Award of the Recovery Act Grant Funds to Airport Improvement Program
   8/6/2009
               Projects by August 5, 2009


  6/28/2010 FHWA's Oversight of the Use of Value Engineering Studies on ARRA Highway and Bridge Projects


                                           DOT OIG Recovery Act Testimonies


    Issued                                                    Title/Link

  3/10/2009 Top Management Challenges Facing the Department of Transportation
            ARRA: DOT's Implementation Challenges and the OIG's Strategy for Continued Oversight of Funds and
  4/29/2009
            Programs
            ARRA: DOT's Implementation Challenges and the OIG's Strategy for Continued Oversight of Funds and
  4/30/2009
            Programs
  3/18/2010 Weaknesses in DOT's Suspension and Debarment Program Limit Its Protection of Government Funds
  4/29/2010 Federal Railroad Administration Faces Challenges in Carrying Out Expanded Role
  5/4/2011 Ensuring ARRA Funds Are Spent Appropriately To Maximize Program Goals




Page 2 of Issued Products                                         DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                                                                                  DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                             Expected
                                                                                                                                                                              Quarter
                                                                                                                                                                               Work
    #        Program Area          Project Title                             Background                                                 Objective                                                      Link to Announcement Memorandum
                                                                                                                                                                               Begins
                                                                                                                                                                               (Date
                                                                                                                                                                             Initiated)
                                                        FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                         grants to States to develop high-speed rail corridors     (1) Identify locations where substantial delays
             Assistance for
                                                         and improve intercity passenger rail service. In our     consistently occur (i.e. "bottlenecks") on Amtrak
            High-Speed Rail
                              Intercity Passenger Rail      March 31, 2009 report, "ARRA 2009: Oversight       routes; (2) identify statistically significant determinants
    1        Corridors and                                                                                                                                                   5/5/2009            Audit of Intercity Passenger Rail Service Bottlenecks
                                Service Bottlenecks    Challenges Facing the Department of Transportation,” of Amtrak delays; and (3) assess the degree of influence
               Intercity
                                                         we identified FRA's new passenger rail program as a     each determinant has on Amtrak delays overall, by
            Passenger Rail
                                                       risk since FRA has not previously implemented a large-                 route, and at bottlenecks.
                Service
                                                               scale high-speed passenger rail program.

                                                       ARRA includes an emphasis on the use of fixed-price
                                                     contracts and competitive procedures to the maximum
                               FHWA’s Oversight of    extent practicable, which applies to Federal-aid state
            FHWA Highway                                                                                       Assess the adequacy of FHWA’s oversight of state
                              Federal-aid State ARRA   contracts. FHWA's ARRA risk assessment identified                                                                       Audit of FHWA's Federal-Aid Highway Program Oversight of Procurement
    2        Infrastructure                                                                                  Department of Transportation contracting practices for 10/28/2009
                                 Contract Award       state contract award and administration issues as risk                                                                          Practices For Recovery Act-Funded Contracts At State DOTs
               Investment                                                                                                  awarding ARRA contracts.
                                    Practices            areas. Also, our scan work found that state DOT
                                                     workforces were often capped or shrinking as workload
                                                                       grows under ARRA.
                                                          In 2007, we issued a baseline report on this project
              FTA's Major     FTA's Oversight of the that outlined key concerns related to the project's cost
                                                                                                                  Evaluate the effectiveness of FTA's oversight of the
            Projects - Dulles    Dulles Corridor        and schedule estimates, funding, and management.
    3                                                                                                            Dulles Corridor Metrorail Project and assess potentia 11/19/2009          Audit of FTA’s Oversight of the Dulles Corridor Metrorail Project
           Corridor Metrorail Metrorail Project Phase The project involves a $900 million Federal investment
                                                                                                                                   safety concerns.
            Project Phase I              I            and accelerated $77 million in payments authorized by
                                                                                 ARRA.
                                                          ARRA requires DOT grant recipients to periodically
                                FAA's Job Creation
           FAA Grants-in-aid                           report “the number of direct, on-project jobs created
                               Under the American                                                                Determine whether (1) AIP and F&E projects funded
            for Airports and                          or sustained by the Federal funds provided for projects.
    4                             Recovery and                                                                   under ARRA are preserving and creating jobs and (2) 11/19/2009                  Audit of FAA’s Job Creation Under the Recovery Act
              Facilities and                            . . and, to the extent possible, the estimated indirect
                               Reinvestment Act of                                                              the reporting of job data satisfies ARRA requirements.
               Equipment                               jobs created or sustained in the associated supplying
                                       2009
                                                                              industries.”
           All ARRA-funded
                                                                                                          Determine if (1) questioned costs identified in Single
            programs and                           DOT Modal Administrations are required to render a
                              Implementing Single                                                        Audits are properly followed up by the DOT Operating
            projects within                       management decision on Single Audit findings within 6                                                                     Audit of DOT's Implementation of Single Audit Recommendations and Cost
    5                       Audit Recommendations                                                          Administrations, and (2) internal control problems    12/22/2009
           FAA, FHWA, FRA,                        months of receipt of the audit report according to OMB                                                                                                   Recovery
                               and Cost Recovery                                                         (material weaknesses and significant deficiencies) are
            FTA, OST, and                                     Circular A-133 section 405 (d).
                                                                                                            corrected by DOT grantees in a timely manner.
                MARAD

                                                        FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                         grants to States to develop high-speed rail corridors
             Assistance for
                                                         and improve intercity passenger rail service. In our
            High-Speed Rail       High Speed Rail                                                                 Determine best practices in preparation of ridership
                                                            March 31, 2009 report, "ARRA 2009: Oversight                                                                                  Review of High Speed Rail and Intercity Passenger Rail Forecasting
    6        Corridors and     Financial Forecasting                                                               and revenue forecasts, cost estimates, and public         1/4/2010
                                                       Challenges Facing the Department of Transportation,”                                                                                                           Practices
               Intercity          Best Practices                                                                                 benefits' valuations.
                                                         we identified FRA's new passenger rail program as a
            Passenger Rail
                                                       risk since FRA has not previously implemented a large-
                Service
                                                               scale high-speed passenger rail program.

                                                        ARRA required FHWA to ensure states receiving ARRA
                                FHWA Oversight of                                                             Determine whether FHWA’s oversight of selected ARRA
            FHWA Highway                                  funds adhere to all Federal-aid highway program
                                Higher Dollar Value                                                            projects has resulted in project compliance with key
    7        Infrastructure                             requirements. Failure to fully meet key requirements                                                        1/20/2010             FHWA's Oversight of Higher Dollar Recovery Act Highway Projects
                               Recovery Act Highway                                                             Federal-aid highway cost, quality, and completion
               Investment                                on higher dollar value projects could impact project
                                     Projects                                                                                     requirements.
                                                                 cost, quality, or timely completion.




Page 1 of Ongoing Audits                                                                                                                                                                                     DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                                                                                    DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                          Expected
                                                                                                                                                                           Quarter
                                                                                                                                                                            Work
    #        Program Area             Project Title                            Background                                               Objective                                                     Link to Announcement Memorandum
                                                                                                                                                                            Begins
                                                                                                                                                                            (Date
                                                                                                                                                                          Initiated)

                                                           FRA received $8 billion in ARRA funding for awarding
              FRA Capital
                                                            grants to States to develop high-speed rail corridors Determine whether the access agreements (1) comply
             Assistance for
                                   High-Speed Rail And      and improve intercity passenger rail service. In our  with the requirements set forth in the Passenger Rail
            High-Speed Rail
                                 Intercity Passenger Rail      March 31, 2009 report, "ARRA 2009: Oversight        Investment and Improvement Act of 2008; and (2)                     FRA High-Speed Rail and Intercity Passenger Rail Infrastructure Access
    8        Corridors and                                                                                                                                                3/25/2010
                                  Infrastructure Access Challenges Facing the Department of Transportation,” adequately address cost, schedule, and performance                                                    Agreements
               Intercity
                                       Agreements           we identified FRA's new passenger rail program as a goals ensuring that the High-Speed Intercity Passenger
            Passenger Rail
                                                          risk since FRA has not previously implemented a large-        Rail grant program benefits are achieved.
                Service
                                                                  scale high-speed passenger rail program.

                                                             In addition to increasing funding for existing DOT      Assess (1) OST’s management of the TIGER program
           OST Supplemental           OST's TIGER            programs, ARRA created new discretionary grant         including the performance measures for determining
    9        Discretionary        Discretionary Grants           programs, including $1.5 billion for surface      economic transportation -related impacts and (2) each 10/22/2010              Audit of OST's TIGER Discretionary Grant Program
            Grants Program              Program                 transportation infrastructure projects to be       Operating Administration's oversight of their respective
                                                            administered by the Office of the Secretary (OST).                         TIGER projects.

                                                        Our ARRA Advisory issued August 6, 2009, reported
                             FAA's Oversight of ARRA that FAA has awarded grants to sponsors with multi-     Determine whether FAA oversight of ARRA grants is
           FAA Grants-in-aid
    10                       Expenditures for Airport year histories of grant management problems. This ensuring that airport sponsors are being reimbursed for 10/22/2010                        Audit of FAA's Oversight of ARRA Expenditures
             for Airports
                                    Projects          raises concerns regarding FAA's ability to ensure ARRA            only eligible expenditures.
                                                                funds are effectively administered.

                                                           HSIPR will transform the nation's rail system and the
                                                          way Americans approach regional trael. It will require
                                                           a major transformation of FRA to include developing
                                                          written policiess and practices to guide the program's    Evaluate FRA's grant management framework and its
              High Speed
                                   FRA's Progress in         grant lifecycle process and hire adequate staff to          process for determining its expanded grant
                Intercity
    11                            Administering Major     oversee program implementantion. At the same time,           management workforce needs and identify the        1/19/2011                FRA's Progress in Administering Major Grants
             Passenger Rail
                                        Grants                 FRA must continue to carry out its traditional         challenges FRA faces in awarding, obligating, and
            Program (HSIPR)
                                                             responsibilities, such as overisght of Amtrak, and               disbursing grant funds to states.
                                                               execute responsibilities associated with other
                                                             Passenger Rail Investment and Improvement Act
                                                                                  initiatives.


                FTA Transit
           Capital Assistance,
             Fixed Guideway                                 The Improper Payments Information Act requires         Evaluate whether FTA has adequate internal controls to
                                   Improper Payment
    12        Infrastructure                                 agencies to test for improper payments in those        prevent, detect and recapture improper payments to 3/14/2011                Improper Payment Oversight in FTA ARRA Programs
                                    Oversight at FTA
            Investment, and                                          programs deemed susceptible.                                  ARRA grant recipients.
                  Capital
           Investment Grants


                                                        FHWA delegates much of the oversight responsibility
                                                           for highway projects to states, but it is ultimately
                                                             accountable for ensuring that projects meet        Determine whether FHWA provides sufficient guidance
            FHWA Highway          FHWA's Stewardship    established Federal requirements. In addition, FHWA and direction to its Division Offices so that Stewardship
    13       Infrastructure          and Oversight        and states must adhere to new ARRA time frames,            and Oversight Agreements address Federal             4/4/2011          FHWA's Stewardship and Oversight Agreements with States
               Investment        Agreements with States   accountability, and reporting standards. However,        requirements and program risks, including those
                                                        given FHWA’s and the states’ limited resources, ARRA                   resulting from ARRA.
                                                          further challenges their ability to oversee Federal
                                                                           highway projects.




Page 2 of Ongoing Audits                                                                                                                                                                                    DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                                                                                 DOT OIG Ongoing Recovery Act Audits

                                                                                                                                                                        Expected
                                                                                                                                                                         Quarter
                                                                                                                                                                          Work
    #        Program Area         Project Title                             Background                                                Objective                                               Link to Announcement Memorandum
                                                                                                                                                                          Begins
                                                                                                                                                                          (Date
                                                                                                                                                                        Initiated)

                                                       FHWA has increased its oversight of ARRA funds by
                                                        undertaking “full oversight” of a number of ARRA
                                                                                                                 Assess FHWA’s guidance for conducting full oversight
                                                      projects. By undertaking full oversight, FHWA retains
            FHWA Highway      FHWA's Full Oversight                                                               during project construction and determine whether
                                                     project level approval responsibilities regarding project
    14       Infrastructure   Activities During ARRA                                                             FHWA's implementation of its full oversight guidance   5/19/2011    FHWA's Full Oversight Activities During ARRA Construction
                                                         design, plans, specifications, and estimates and
               Investment          Construction                                                                    results in ARRA projects meeting quality and cost
                                                        contract awards and inspections—responsibilities
                                                                                                                                    requirements.
                                                       typically delegated to the states in accordance with
                                                             Stewardship and Oversight Agreements.




Page 3 of Ongoing Audits                                                                                                                                                                            DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                                    DOT OIG FY 12 Planned Recovery Act Audits
                                                                                                                                                                                    Expected
     #           Agency     Program Area         Project Title                         Background                                            Objective                               Quarter
                                                                                                                                                                                   Work Begins

                                                                         FHWA's Federal Lands Highway (FLH) office`
                                                                        directly manages the transportation needs of      Determine whether FLH oversight ensures (1)
                           FHWA Highway       FHWA Oversight of      300,000 miles of public roads serving Federal and       federal funds are used appropriately and
     1           FHWA       Infrastructure   Recovery Act Federal     Indian lands. FLH is the largest program directly efficiently to improve the safety and conditions of           Q2 FY 12
                              Investment        Lands Projects       managed by FHWA. FLH received $550 million in roads and bridges; and (2) projects comply with
                                                                      ARRA funding and was designated as a high-risk        applicable Federal and ARRA requirements.
                                                                                     program by FHWA.


                                                                     OIG audit and investigative work has identified a
                                                                      high risk of improper payments being made for      Assess whether FHWA has taken steps to reduce
                                                                     unsupported and unjustified construction change     the risk of states approving ARRA-funded change
                           FHWA Highway      FHWA's Oversight of
                                                                      orders and claims on FHWA highway projects.        orders and claims for projects under construction
     2           FHWA       Infrastructure   Construction Change                                                                                                                      Q2 FY 12
                                                                         This is of particular concern because ARRA      that are not fully justified or properly priced and
                              Investment      Orders and Claims
                                                                         construction contracts across the country         identify ARRA project costs not appropriately
                                                                        generally were awarded substantially under                            supported.
                                                                     states' engineering estimates (up to 30% under).


                           FHWA Highway                              The Improper Payments Information Act requires       Evaluate whether FHWA has adequate internal
                                              Improper Payment
     3           FHWA       Infrastructure                            agencies to test for improper payments in those       controls to prevent, detect and recapture                 Q3 FY 12
                                              Oversight at FHWA
                              Investment                                      programs deemed susceptible.                   improper payments to grant recipients.


                                                                     NEPA requires FRA, as a federal agency, to assess
                                                                         the environmental impacts of its proposed
                                                                       actions prior to making decisions. Each federal
                                                                                                                            Evaluate FRA's process for reviewing and
                             High Speed         FRA's National        agency establishes its own NEPA review process.
                                                                                                                         approving NEPA requirements for rail grants and
                               Intercity        Environmental        Thus inefficiencies and redundancies in the NEPA
     4             FRA                                                                                                      determine the differences and similarities                Q2 FY 12
                            Passenger Rail   Protection Act (NEPA)   review process are common among projects that
                                                                                                                           between FHWA, FTA, and FRA processes for
                           Program (HSIPR)          Process          involve more than one agency. For HSPIR funded
                                                                                                                         granting NEPA approval for rail related projects.
                                                                        projects, the states, the freight railroads, and
                                                                        Amtrak have sought agency coordination on
                                                                      NEPA matters between the FRA, FTA and FHWA.




Page 1 of Planned Audits                                                                                                                          DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
                                                     DOT OIG FY 12 Planned Recovery Act Audits
                                                                                                                                                                                Expected
     #           Agency     Program Area           Project Title                       Background                                        Objective                               Quarter
                                                                                                                                                                               Work Begins

                           FTA’s Oversight of                        ARRA includes an emphasis on use of fixed-price
                                                                                                                       Assess the adequacy of FTA's oversight of state
                            Grantees’ ARRA    FTA’s Oversight of      contracts and competitive procedures to the
                                                                                                                        and transit agency level contract award and
                            Contract Award Grantees’ ARRA Contract maximum extent practicable, which applies to
     5             FTA                                                                                                 administration practices to ensure compliance              Q3 FY 12
                                  and            Award and          contracts under FTA grants. However, FTA has no
                                                                                                                         with laws and regulations, as well as cost,
                            Administration Administration Practices mechanism for pre-award reviews of compliance
                                                                                                                             schedule, and performance goals.
                               Practices                               with ARRA and other contracting mandates.




Page 2 of Planned Audits                                                                                                                      DOT OIG Recovery Act Oversight Plan FY12_11-02-11.xls
